                                                                          Memorandum
Regional Inspector General
        Pretoria




                                                                                      April 3, 2000


         MEMORANDUM FOR USAID/TANZANIA DIRECTOR, Lucretia Taylor

         FROM:               Regional Inspector General/Pretoria, Joseph Farinella

         SUBJECT:            Audit of USAID/Tanzania’s Environment Strategic Objective,
                             Report No. 4-621-00-005-P


         This memorandum is our report on the subject audit. We have received your comments
         on the draft report and have included them in their entirety as an appendix to this report
         (see Appendix II).

         The report contains one recommendation for your action. This recommendation involves
         having an Agency-contracted audit performed on the field support contracts and grants
         funded under the Mission’s environment program which were not receiving adequate
         financial oversight as well as several cooperative agreements found to have
         recordkeeping deficiencies. In your response to our draft audit report, you stated that the
         Mission had already initiated action to have Agency-contracted audits performed on the
         field support contracts and grants noted in the audit recommendation. Based on this
         action, a management decision was reached on Recommendation No. 1 upon issuance of
         this report. Please advise USAID’s Office of Management Planning and Innovation
         [M/MPI] when final action has been completed.

         I appreciate the cooperation and courtesies extended to my staff during the audit.


         Background



         T
                anzania is one of the most biologically diverse countries in Africa. In addition to
                having the continent’s highest mountain (Mt. Kilimanjaro) and bordering Africa’s
                largest (Lake Victoria) and deepest (Lake Tanganyika) lakes, the country is home
         to Ngorongoro Crater, the Serengeti and other internationally renowned game parks and
         reserves. However, the country’s rapid population growth coupled with current land use
         practices in this agrarian economy has increased the demand on the natural resource base
         and led to the exploitation of the environment, including the country’s wildlife resources.
         This degradation of the country’s natural resources has been further aggravated by the
influx of refugees who have destroyed forests and water catchment areas in their search
for firewood.

Because of Tanzania’s importance for global biodiversity, a high priority was assigned to
addressing many of the problems threatening the country’s rich natural resource base. To
assist the country in this effort and promote more effective natural resource management
(NRM) practices, USAID/Tanzania initiated a new strategic objective in 1996:
Foundation Established for Adoption of Environmentally Sustainable Natural Resource
Management Practices in Tanzania. The primary purpose of this strategic objective is
“to stem the loss of biodiversity by advancing environmental policies, legislation and
improved natural resource management practices in selected areas.” Under this
objective, the Mission has channeled its assistance to support four management systems:
1) national parks, 2) game reserves, 3) community-based conservation and 4) integrated
coastal management.

The Mission’s main partners under its NRM (i.e., environment) program include U.S. and
Tanzanian government agencies, universities, nonprofit organizations and contractors.
Included among the U.S. partners are five technical assistance firms funded under a “field
support” contract or grant mechanism involving mission-funded services that were
procured through USAID’s Global Bureau. The remaining U.S. partners were funded by
the Mission through bilateral grants. Total funding authorized under the Mission’s NRM
program was $29.6 million, which included $20 million of bilateral funding and $9.6
million in field support contracts/grants. Of this total, $6.9 million in bilateral funding
and an undetermined amount of field support funds had been spent as of September 30,
1999.


Audit Objective

This audit was performed at the request of the USAID/Tanzania Mission based on
concerns regarding the level of spending under its natural resource management program
and was designed to answer the following question:

             Were activities under USAID/Tanzania’s natural resource
             management strategic objective adequately monitored to
             ensure that the intended benefits were being achieved?

Appendix I provides a complete discussion of the scope and methodology for this audit.


Audit Findings


F
     or the areas reviewed, USAID/Tanzania was generally found to be providing
     oversight in monitoring its natural resource management (NRM) activities to
     ensure that the intended benefits were being achieved. The Mission’s financial
monitoring, however, did not provide adequate coverage over the NRM “field support”



                                            2
contracts/grants which were being administered by USAID/Washington (USAID/W)
with little or no formal reporting to the Mission. These areas are discussed below.

As part of its monitoring responsibilities, mission strategic objective (SO) teams are
required under Automated Directive System’s (ADS) Chapter 203.5 to prepare a
performance-monitoring plan. This plan should include a description of the mission’s
system for collecting and analyzing relevant results in order to track performance and
report on progress achieved towards the intermediate results and the SO. Performance
indicators must also be defined for each SO with baselines and targets established under
each indicator. In addition, SO teams are expected to track inputs, outputs and processes
to ensure that activities are proceeding as expected and are contributing to the
intermediate results and SO as anticipated. This is partially achieved by maintaining
regular contact with the implementing partners through meetings and site visits as well as
through the review of progress reports to obtain updates on the status of activities in the
field.

During our fieldwork, we verified that USAID/Tanzania had a system in place for
monitoring the overall performance under its NRM program as required by USAID
policy and procedures. For example, we found that the Mission:

    §   developed a Performance Monitoring Plan that (i) described the overall system in
        place for gathering and compiling NRM results data from implementing partners
        for use in measuring progress and (ii) defined the data to be collected as well as
        the performance indicators and targets at both the SO1 and intermediate results
        levels;

    §   performed regular visits to the activity sites to meet with partner staff, observe the
        status of activities and discuss pending issues; and

    §   held quarterly SO team meetings during which the Mission received progress
        reports summarizing the status of activities in the field and achievements during
        the period.

During field visits to selected activity sites, we also observed that the implementing
partners generally appeared to be making positive progress towards achieving their
deliverables. On a trip to the northern town of Arusha, for example, we visited a
Community Conservation Services Center, established by the African Wildlife
Foundation (AWF) with USAID funds, which provided office space for AWF staff and
logistical support to visiting partners and SO staff. Trips were also made to the nearby
Tarangire and Lake Manyara National Parks to observe on-going activities taking place
within the parks, including USAID-funded training for park staff offered through the
U.S. Department of Interior on fire suppression and anti-poaching techniques. The
auditors also made a brief visit to a local Masaai village, just outside one of these parks,

1
  At the time of the audit fieldwork in November 1999, USAID/Tanzania was in the process of refining its
results framework, at the strategic objective level, for its NRM strategic objective.




                                                    3
where they met with a community conservation group targeted for support that was
protecting a nearby forest used as a corridor by migrating elephants.

The audit, however, noted that adequate financial oversight was not being provided over
a major portion of USAID/Tanzania’s NRM portfolio due to the relatively large number
of “field support” contracts/grants within this portfolio and the nature of this funding
mechanism.

Lack of Financial Oversight Over
Field Support Contracts/Grants

ADS Chapter 203.5.2 provides that “SO teams must remain informed of all aspects of
performance relating to USAID-funded assistance in order to effectively manage for
results.” Financial oversight constitutes an essential aspect of this management process
since the absence of such monitoring increases the risk of USAID funding not being
properly accounted for and not being used for the intended purposes. The financial
monitoring responsibilities assigned to missions are described in USAID’s Controllers’
Handbook, which requires missions to provide “…oversight over USAID-financed
contractors and recipients to assure the prudent management of development resources.”
In addition to maintaining and reviewing the mission accounting records, the Handbook
states that missions shall, among other things, periodically compare the physical progress
of activities with reported expenditures in order to assess whether spending levels appear
reasonable in relation to the progress achieved to date.

The audit, however, found that USAID/Tanzania was unable to provide this level of
financial oversight in monitoring funding under its NRM program. While the Mission
provided financial coverage over the bilaterally-funded grants within its portfolio, it was
unable to offer the same level of oversight with regards to its “field support” activities
which represented 32 percent, or roughly a third, of the $29.6 million in total funding
authorized under the NRM program.

Field Support is used to describe the range of services (i.e., technical assistance) provided
to field missions through USAID’s Global Bureau. Under this mechanism, missions
acquire assistance through the provision of funds to the Global Bureau which, in turn,
procures the services under an existing contract or grant. Since USAID/W is responsible
for administering and performing the accounting for these types of contracts or grants,
missions generally receive little, if any, financial reporting and are, therefore, unable to
monitor the financial status and expenditures for these entities. Although this mechanism
is allowable and routinely used within USAID, we believe that USAID/Tanzania’s
extensive reliance on these types of contracts or grants was the primary cause in not
being able to provide adequate financial oversight for its “field support” activities. In our
opinion, this deficiency also represents a control weakness, which exposes the Mission to
an unacceptable level of risk and compromises its financial monitoring capabilities. The
Mission recognized this and cited the problem as a weakness in its Federal Managers’
Financial Integrity Act (FMFIA) assessment for Fiscal Year 1999.




                                             4
As a result of this lack of oversight, USAID/Tanzania did not know how much of the
total $9.6 million authorized under the five field support contracts/grants in its NRM
portfolio had been obligated and spent to date. Despite efforts by both the Mission and
the auditors to obtain this data from the field support partners during the field work, the
audit was unable to ascertain this information since the data for each entity was either
unavailable or unverifiable. Therefore, the Mission did not have adequate assurance that
funds spent by these entities were being properly accounted for and used for the intended
purposes (i.e., supporting activities contributing towards the SO and intermediate results).
This was further confirmed by several mission staff who expressed concerns regarding
the fact that they did know how much had been spent to date by the field support partners
or what the funds were being used for.

While the audit did not identify any specific cases where USAID funds were being
misused, information was brought to the auditors’ attention during the course of their
fieldwork suggesting potential improprieties under several contracts and grants. These
matters were referred to the Office of Inspector General’s Office of Investigations
(OIG/I) which opened an investigation to look into these issues. Among other things, the
investigation later found, following the conclusion of the audit fieldwork, that loose
administrative controls prevented certain records from being located at the time of the
field visit by the OIG/I special agent.

This control deficiency was noted, not only with respect to several field support
contracts, but also in the case of activities under two cooperative grants (Agreement Nos.
623-A-00-98-00024-00 and 623-A-00-98-00057-00).

In an effort to improve its level of financial oversight, we believe USAID/Tanzania needs
to give careful consideration to obtaining future technical services directly through the
Mission in order to gradually reduce its reliance on field support mechanisms. During
the audit, we noted that the Mission had already initiated efforts to facilitate this process
and had requested its own Contracting Officer position in its Fiscal Year 2001 Results
Review and Resource Request (R4).

In the interim, however, USAID/Tanzania needs to assure itself that USAID funds
allocated to the field support partners under its NRM program have been properly spent
and ascertain the status of program funding under each contract or grant. In addition, the
Mission needs to examine the loose administrative controls identified earlier during the
field visit by the IG/I special agent, particularly as they effect activities under the two
cooperative grants cited earlier.         We are, therefore, making the following
recommendation:

       Recommendation No. 1: We recommend that USAID/Tanzania
       have an Agency-contracted audit performed on its field support
       contracts and grants [Nos. PCE-I-00-96-0002-00, Delivery Order
       No. 12; PCE-Q-00-93-00069-00; PCE-A-00-95-00030-00; PCE-A-00-
       95-00021-03; ENV-P-00-97-00002-00] as well as two cooperative
       grants [623-A-00-98-00024-00 and 623-A-00-98-00057-00] funded



                                             5
       under its natural resource management strategic objective to
       determine whether funds were spent in accordance with the terms
       of the contract or agreement.


Management Comments and Our Evaluation

In its response to our draft audit report, the Mission agreed with the finding and
recommendation contained in the report. In addition, the Mission stated that it had
already initiated action to have Agency-contracted audits performed on the field support
contracts and grants noted in the audit recommendation. Based on this action, a
management decision was reached on Recommendation No. 1 upon issuance of this
report. USAID’s Office of Management Planning and Innovation [M/MPI] should be
advised when final action has been completed.




                                           6
                                                                                    APPENDIX I
                                                                                            Page 1 of 2




                                   SCOPE AND
                                  METHODOLOGY



Scope


W
          e audited USAID/Tanzania’s environment strategic objective in accordance with
          generally accepted government auditing standards. The field work for this audit was
          performed from September 2, 1999 through November 24, 1999 and involved a review
of the Mission’s monitoring of activities under its natural resource management strategic
objective (SO), covering activities since the approval of the SO in 1996. As of the period of our
fieldwork, USAID had authorized $29.6 million in assistance under this SO which was being
used to support four management systems: (1) national parks, (2) game reserves, (3) community-
based conservation and (4) integrated coastal management.

Specifically, the audit focused on the Mission´s monitoring of both the performance and
financial aspects of the SO. As a result, we concentrated our audit work primarily on examining
existing documents, including monitoring plans, progress documents and financial records on-
file at the USAID Mission in Dar es Salaam, Tanzania. This work also involved a review of
contract and grant documents for the SO partners to gain an understanding of the reporting
requirements as well as activities and deliverables to be produced by each partner. The main
partners funded under the SO consisted of several U.S. and Tanzanian government agencies and
universities, as well as six U.S. grantees and contractors and a local nonprofit organization.
Among the U.S. partners were five entities whose services were being provided under field
support contracts and grants which were funded by the Mission, but procured through USAID’s
Global Bureau. These contracts/grants represented 32 per cent of the total funding authorized
under the SO.

In addition to our work at the Mission, site visits were made to the following locations:

•   Partner Support Facility in Dar es Salaam, Tanzania where three of the five field support
    contractors were co-located

•   Country offices for all three of the U.S. nonprofits, two of which were located in Dar es
    Salaam and one at the Community Conservation Service Center in Arusha, Tanzania

•   Selected activity sites in and around Tarangire and Lake Manyara National Parks located in
    northern Tanzania

Audit work during these visits was confined to interviewing staff at the site, requesting financial
data and making general observations on the progress of activities to date.
                                                                                  APPENDIX I
                                                                                       Page 2 of 2




Methodology
The audit objective was to determine if USAID/Tanzania was adequately monitoring activities
under its natural resource management (i.e., environment) strategic objective to ensure that the
intended benefits were being achieved.

To accomplish this audit objective, we interviewed officials from the Mission, U.S. PVOs and
contractors, U.S National Park Service and the Tanzanian National Parks Authority (TANAPA),
as well as the Park Wardens at the Tarangire and Lake Manyara National Parks. In addition, we
examined and analyzed correspondence, the Mission’s latest FMFIA report, minutes of meetings,
progress reports, Mission Accounting and Control System reports and other records contained in
the Mission’s files. These documents were reviewed to assess the extent to which the Mission
was monitoring its environment activities and to determine whether adequate oversight was
being provided in tracking the progress achieved towards meeting planned targets as well as
ensuring that USAID funds were being properly accounted for. In addition, contract and grant
documents were examined to obtain background information on the reporting requirements and
ascertain the required inputs and deliverables under selected contracts and grants under this SO.
Information was also gathered through observations made during two separate field visits to the
northern Tanzanian town of Arusha where we had an opportunity to talk with field staff for two
of the U.S. PVOs and visit activity sites in and around the Tarangire and Lake Manyara National
Parks.

During the fieldwork for this audit, evidence of potential improprieties within the Mission’s
environment program was brought to the auditors’ attention. These matters were promptly
referred to the OIG/I for further review. An investigation was later initiated to look into these
matters and was still in progress at the completion of our fieldwork.

As part of the audit, we also obtained written representations from cognizant Mission officials
for all essential assertions relating to the audit objective.
    APPENDIX II
Management Comments
